No. 19-1341

In the Supreme Court of the United States
RICHARD A. VAN AUKEN, TRUSTEE AND
RICHARD A. VAN AUKEN, BENEFICIARY,
Petitioners,

v.
FLETCHER R. CATRON, ESQ.; PETER F. WIRTH, ESQ.;
AND KAREN AUBREY, ESQ.,
Respondents.

On Petition for a Writ of Certiorari
to the New Mexico Court of Appeals

MOTION FOR LEAVE TO FILE BRIEF AS
AMICI CURIAE AND BRIEF FOR CENTER FOR
ESTATE ADMINISTRATION REFORM, et al. IN
SUPPORT OF PETITIONERS

Charles "Chad" Baruch
Counsel of Record
Johnston Tobey Baruch PC
12377 Merit Drive, Suite 880
Dallas, Texas 75251
(214) 761-6260
chad@jtlaw.com
Counsel for Amici Curiae
LEGAL PRINTERS LLC • Washington, DC • 202-747.2400 • legalprinters.com

1
MOTION FOR LEAVE TO FILE BRIEF AS
AMICI CURIAE
The Center for Estate Administration Reform,
the New Mexico Family Guardianship Informal
Coalition, Mary Darnell, Terri Black, Elizabeth
McKinney Brown, Rio Hamilton, Jorja ArmijoBrasher, and Michael Brasher seek leave to file the
accompanying brief as amici curiae.
Amici include advocacy groups, individuals
whose family members have been victimized by
predatory guardianships, conservatorships, or
attorneys, and two former government officials.
Petitioner consented to the filing of this brief,
but respondent Fletcher Caron withheld consent,
without providing any reason, by email from counsel
dated July 3, 2020. Respondents Peter Wirth and
Karen Aubrey, through counsel, declined to take a
position on the motion, saying they had been
dismissed from the state-court proceedings.
Amici seek to provide this Court with
information concerning the prevalence of the issue
presented by the petition, both in terms of the number
of Americans affected and the amount of money at
stake. They also seek to explain to the Court the
nature of the legal problem presented by the petition.
These matters provide important, and new,
perspectives on why the Court should grant the
petition.. Amici therefore seek leave to file their brief.

Respectfully submitted,
Charles "Chad" Baruch
Counsel of Record
Johnston Tobey Baruch PC
12377 Merit Drive, Suite 880
Dallas, Texas 75251
(214)i741-6260
chad@jtlaw.com
Counsel for Amici Curiae

1

TABLE OF CONTENTS
Page
Table of Contents
Table of Authorities

ii

Interests of Amici Curiae

1

Summary of Argument

2

Argument

3

The petition presents a recurring and important
issue involving hundreds of thousands of
Americans and billions of dollars
4
This Court should grant review to require
interpretation and enforcement of the trust
agreement
8
Conclusion

9

11

TABLE OF AUTHORITIES
Page
Cases
Firestone Tire & Rubber Co. v. Bruch,
489 U.S. 101 (1989)

8

Other Authorities
Ariana Campo-Flores & Ashby Jones, Abuse Plagues
System of Legal Guardians for Adults, WALL ST.
J. (Oct. 30, 2015)
5
CENTER FOR ELDERS AND THE COURTS, ADULT
GUARDIANSHIP COURT DATA AND ISSUES RESULTS
FROM AN ONLINE SURVEY (Mar. 2, 2020)
4
Susan Garland, Calls for Court Reform as Legal
Guardians Abuse Older Adults, N.Y. TIMES (July
28, 2017)
5, 6
Mark Hall, The Greatest Wealth Transfer in History:
What's Happening and What Are the
Implications, FORBES (Nov. 11,
4
2019)
Colleen Heild, New Mexico guardians get a new
watchdog, ALBUQUERQUE J. (June 25, 2020)

6

David Holmberg, The Scourge of Elder Abuse: Don't
Be Afraid to Speak Up, FORBES (Oct. 18,
2
2019)

111

John Pacenti, Jury hits lawyers with '816.4M for
doing senior wrong in guardianship, PALM BEACH
POST (Aug. 4, 2017)
7
Jess Stonefield, Are Boomers Ready to make the
Greatest Wealth Transfer in History?, FORBES
(May 21, 2018)

4

U.S. Attorney's Office, District of New Mexico, Paul
Donisthorpe Pleads Guilty to Federal Wire Fraud
and Money Laundering Charges Arising Out of
Scheme to Embezzle $4.8 Million from Client
Trust Accounts (Nov. 27, 2017)
5-6
U.S. Attorney's Office District of New Mexico,
Ayudando Guardians' President and Chief
Financial Officers Plead Guilty to Conspiracy,
Mail Fraud, Identity Theft, and Money
Laundering Charges as Part of Multi-Million
Dollar Financial Scheme (July 12, 2019)

6

Pam Zubeck, How courts and guardians exploit the
elderly and their estates and get away with it,
COLORADO SPRINGS INDEP. (Jan. 8, 2020)
5

INTERESTS OF AMICI CURIAE'
Center for Estate Administration Reform
(CEAR) is a nonprofit foundation that advocates for
the rights of vulnerable adults (primarily seniors and
adults with disabilities), assists victims of predatory
attorneys, and promotes reform in probate and
guardianship proceedings.
New Mexico Family Guardianship
Informal Coalition is an informal coalition of
national groups, organizations, and New Mexicans
working to build awareness of injustices in the system
that governs court-appointed guardians and
conservators over incapacitated or otherwise
vulnerable persons.
Mary Darnell, Terri Black, Elizabeth
McKinney Brown, and Rio Hamilton are
individuals whose family members were victimized by
predatory guardianships, or conservatorships, or
attorneys.
Jorja Armijo-Brasher is the former director
of the Department of Senior Affairs for the City of
Albuquerque, New Mexico and served on the New
Mexico Adult Guardianship Study Commission.
Michael Brasher is a former Albuquerque
City Councilor, Bernalillo County Commissioner, and
Regent of the University of New Mexico.

'Under Supreme Court Rule 37.6, amici curiae state that no
counsel for a party authored this brief in whole or in part; and
that no person or entity—other than amici curiae and their
counsel—made a monetary contribution intended to fund the
preparation and submission of this brief. All parties received 10days' notice of the filing of this brief.

2
SUMMARY OF ARGUMENT
"Elder abuse by opportunistic court guardians
is one of those issues in American society that has
reached critical mass in recent years, and some
statistics indicate that it might soon achieve a
dubious parity with child abuse." David Holmberg,
The Scourge of Elder Abuse: Don't Be Afraid to Speak
Up, FORBES (Oct. 18, 2019).2
The petition in this case arises from this
systemic abuse—and presents this Court with an
ideal vehicle by which to address it. Amici urge this
Court to do so.
The problem of predatory estate trafficking is
rampant. Court-appointed guardians oversee more
than 1.3 million adult Americans and may control
more than $250 billion in assets. The media is filled
with stories of fraud and theft by these "guardians."
One state audit found fraud in ten percent of courtappointed guardianships. If that held true across the
country, it would mean more than 130,000 instances
of fraud against vulnerable Americans involving as
much as $25 billion in assets.
And, as this case demonstrates, the plague of
predatory estate trafficking extends well beyond the
confines of court-established guardianships to a
variety of schemes perpetrated by attorneys. The
petition here involves allegations that attorneys
conspired with a hospice caregiver to transfer trust
assets from a vulnerable elderly person to the
caregiver in violation of the trust agreement. Yet, the
2 https://www.forbes.com/sites/davidholmberg/2019/10/18/thescourge-of-elder-abuse-dont-be-afraid-to-speakup/#2bbf9d19637e.

3
state courts would not enforce that trust agreement
despite years of litigation.
Even without outright theft, estate assets
routinely are drained through protracted and
unnecessary state-court proceedings in which end-oflife documents simply are ignored.
To say that this case presents a recurrent and
important issue worthy of this Court's discretionary
review would be an understatement.
ARGUMENT
The petition in this case presents an important
issue affecting thousands of elderly or otherwise
vulnerable Americans: their inability to obtain
judicial enforcement of valid, unambiguous estateplanning instruments in the face of predatory
guardianships and other estate-trafficking schemes.
Aging Americans are counseled ad nauseam to
protect themselves by executing instruments like
durable powers of attorney, healthcare advance
directives, trusts, joint bank accounts, and so on. But
these instruments provide cold comfort when courts
remain free to thrust them aside. All too often,
proceedings involving estates serve no purpose other
than to line the pockets of unscrupulous attorneys
and professional "guardians" with the savings of the
very people they are supposed to protect.
Each day, thousands of American families find
themselves trapped in the vortex of guardianship and
similar proceedings that are seemingly endless—or
whose end all too often coincidentally coincides with
the exhaustion of an elderly person's life savings. And

4
all of this occurs despite the existence of unambiguous
end-of-life documents.
Amici believe the time has come for this Court
to step into the void, grant the petition, and clarify
that a court may not simply cast aside trusts, durable
powers of attorney, and similar documents in
connection with guardianship or similar proceedings.
1.

The petition presents a recurring and
important issue involving hundreds of
thousands of Americans and billions of
dollars.

We are in the midst of the greatest
intergenerational transfer of wealth in human
history. Jess Stonefield, Are Boomers Ready to Make
the Greatest Wealth Transfer in History?, FORBES
(May 21, 2018). Over the next two decades, Baby
Boomers will transfer more than $30 trillion in wealth
to younger generations. Mark Hall, The Greatest
Wealth Transfer in History: What's Happening and
What Are the Implications, FORBES (Nov. 11, 2019).3
Guardianships affect a substantial portion of
these transfers. The National Center for State Courts
estimates that more than 1.3 million American
adults—holding an aggregate $50 billion in assets—
are under the supervision of a court-appointed
guardian. CENTER FOR ELDERS AND THE COURTS,
ADULT GUARDIANSHIP COURT ,DATA AND ISSUES
RESULTS FROM AN ONLINE SURVEY 14 (Mar. 2, 2010).4
https://www.forbes.com/sites/markhal1/2019/11/11/thegreatest-wealth-transfer-in-history-whats-happening-andwhat-are-the-implicationsflte5752314090a.
4 http://aja.ncsc.dni.us/pdfs/GuardianshipSurveyREport_
FINAL.pdf.
3

5
Other sources estimate the amount as being far
greater—more than $250 billion. See Arian CampoFlores & Ashby Jones, Abuse Plagues System of Legal
Guardians for Adults, WALL ST. J. (Oct. 30, 2015).5
And with the aging of the baby boomers, these
numbers will increase. Susan B. Garland, Calls for
Court Reform as Legal Guardians Abuse Older
Adults, N .Y . TIMES (July 28, 2017).6
Unfortunately, abuse runs rampant. Examples
abound. A well-known and popular professional
guardian in Florida charged with stealing more than
$500,000 from a 92-year-old man in her care. A
Nevada professional guardian sentenced to 16 years
in prison for her rampant theft. See Pam Zubeck, How
courts and guardians exploit the elderly and their
estates and get away with it, COLORADO SPRINGS
INDEP. (Jan. 8, 2020).7
In New Mexico, where this case arose, the CEO
of a non-profit trust company imprisoned for stealing
$4.8 million in funds under his control—almost all of
it from elderly, disabled, and other vulnerable New
Mexicans. U.S. Attorney's Office, District of New
Mexico, Paul Donisthorpe Pleads Guilty to Federal
Wire Fraud and Money Laundering Charges Arising

5https://www.wsj.com/articles/abuse-plagues-system-of-legalguardians-for-adults-1446225524.
6https://www.forbes.com/sites/nextavenue/2018/05/21/areboomers-ready-to-make-the-greatest-wealth-transfer-inhistory/#3b0a5a44677d.
7https://www.csindy.com/coloradosprings/how-courts-andguardians-exploit-the-elderly-and-their-estates-and-get-awaywith-it/Content?oid=21038322.

6
Out of Scheme to Embezzle $4.8 Million from Client
Trust Accounts (Nov. 27, 2017).8
The operators of an Albuquerque guardianship
company imprisoned for their roles in a scheme to
embezzle more than $11 million from hundreds of
client accounts. U.S. Attorney's Office District of New
Mexico, Ayudando Guardians' President and Chief
Financial Officers Plead Guilty to Conspiracy, Mail
Fraud, Identity Theft, and Money Laundering
Charges as Part of Multi-Million Dollar Financial
Scheme (July 12, 2019).9
The New Mexico state auditor performed a
random survey of 300 cases with court-appointed
guardians or conservators—and found 194 risk
factors for fraud, including numerous cases of checks
written directly to the guardians and conservators.
Colleen Heild, New Mexico guardians get a new
watchdog, ALBUQUERQUE J. (June 25, 2020).10
Similarly, a Texas audit of guardianship cases
found fraud in nearly ten percent of all court-imposed
guardianships. Garland, supra.
These abuses are not limited to guardians; in
Florida, a jury returned a $16.4 million verdict
against two attorneys for breaching their fiduciary
duties to a person and running up unnecessary fees in
a guardianship and trust proceeding. John Pacenti,
http s://www.justice.gov/usao-nm/pr/paul-donisthorpe-pleadsguilty-federal-wire-fraud-and-money-laundering-chargesarising.
9http s://ww w .justice.gov/usao-nm/pr/ayudando-guardianspresident-and-chief-financial-ofacer-plead-guilty-conspiracymail.
19https://www.abqjournal.com/1470013/new-mexico-guardiansget-a-new-watchdog.html.
8

7
Jury hits lawyers with $16.4M for doing senior wrong
in guardianship, PALM BEACH POST (Aug. 4, 2017)."
Consider one family's nightmare.
Delford (Del) Mencarelli executed estateplanning documents to protect himself and his only
child, Tern Black. At age 72, Del moved to Las Vegas
and rented a place from an old friend, Helen Natko.
Not long afterward, Del began suffering from
dementia. Taking advantage of Del's condition, Natko
stole $220,000 from him in just 22 months. Upon
discovering the theft, Tern attempted to come to her
father's rescue. But Natko held him captive in his
home, and challenged Terri's rights in a guardianship
proceeding. Natko obtained a court-appointed
professional, guardian and bogged Tern down in
protracted proceedings—in which Natko ultimately
prevailed. All of this happened despite Del's
unambiguous estate-planning instruments.
Eventually, law enforcement officials indicted
Natko for theft and she was convicted. The conviction
later was overturned, and the district attorney
declined to retry Natko due to her advanced age. By
the time the dust settled, Del's family—though
"vindicated"—was out more than $1 million at the
hands of a person who prevailed in civil court despite
having stolen Del's money.
This is just one of the many similar stories from
across the country. The petition presents an issue
affecting legions of Americans at the most vulnerable
lihttps://www.palmbeachpost.cominews/jury-hits-lawyers-withfor-doing-senior-wrongguarclianship/6CnikAZ7x3K9z9601z09BNL

8
time in their lives. Amici urge the Court to grant the
petition and confront this problem.
2.

This Court should grant review to require
interpretation and enforcement of the
trust agreement.

This case involves a hospice caregiver who
isolated and then took advantage of a vulnerable and
distraught elderly person. The petition alleges that
estate-planning attorneys assisted the caregiver in
obtaining transfers of trust assets without any notice
to the trust beneficiaries, in part by providing a faulty
opinion letter.
Probate proceedings are intended to effectuate
the decedent's intent. This means enforcing the terms
of end-of-life instruments like trust agreements, the
same way courts enforce other contracts—by
construing and then applying their explicit terms.
Yet, according to the petition, the New Mexico courts
would not enforce the unambiguous trust terms.
As this Court has noted, the terms of a trust
are "determined by the provisions of the instrument
as interpreted in light of all the circumstances . . . ."
Firestone Tire & Rubber Co. v. Bruch, 489 U.S. 101,
112 (1989) (citation omitted). Moreover, "courts
construe terms in trust agreements without deferring
to either party's interpretation." Ibid. Whether an act
violates the trust agreement depends "on the terms of
the trust as the court may interpret them, and not as
they may be interpreted by the trustee himself or by
his attorney." Ibid (citation omitted; emphasis in
original).
This Court should grant the petition to clarify
the requirement that end-of-life instruments be

9
interpreted and enforced, like other contracts, in
probate and related proceedings.
CONCLUSION
For the foregoing reasons, amici urge the Court
to grant the petition for a writ of certiorari.
Respectfully submitted,
Charles "Chad" Baruch
Counsel of Record
Johnston Tobey Baruch PC
12377 Merit Drive, Suite 880
Dallas, Texas 75251
(214) 741-6260
chad@jtlaw.com
Counsel for Amici Curiae

